Memorandum No. D-2010-RAM-016                August 12, 2010




     American Recovery and Reinvestment Act Funds
    Properly Used for Aircraft Parking Apron Repairs at
      the Minneapolis—St. Paul Air Reserve Station,
                        Minnesota
Additional Copies
To obtain additional copies of this memorandum, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/recovery/index.html or contact the
Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703)
604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AFRC                         Air Force Reserve Command
COMPEC                       Command-Wide Operations and Maintenance Project
                               Execution Contract
FAR                          Federal Acquisition Regulation
FBO                          Federal Business Opportunities
FPDS                         Federal Procurement Data System
FSRM                         Facilities Sustainment, Restoration, and Modernization
IDIQ                         Indefinite-Delivery, Indefinite-Quantity
OMB                          Office of Management and Budget
                                INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE 

                                 400 ARMY NAVY DRIVE 

                            ARLINGTON, VIRGINIA 22202-4704 





                                                                    August 12, 2010

MEMORANDUM FOR COMMANDER, U.S. AIR FORCE RESERVE

SUBJECT: 	 American Recovery and Reinvestment Act Funds Properly Used for Aircraft
           Parking Apron Repairs at the Minneapolis-St. Paul Air Reserve Station,
           Minnesota (Memorandum No. D-2010-RAM-016)


This memorandum provides the results from our audit. We determined that the aircraft
parking apron repair project at the Minneapolis-St. Paul Air Reserve Station was
justified and met Recovery Act goals for accountability and transparency. We will
continue to review DOD's progress and issue subsequent reports and memoranda that will
discuss our evaluation of DOD's implementation of the American Recovery and
Reinvestment Act. Weare making no recommendations and do not require a written
response. Therefore, we are publishing this memorandum in final form.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9201 (DSN 664-9201).




                                      Richard B. Jolliffe
                                      Assistant Inspector General
                                      Acquisition and Contract ,Management
THIS PAGE LEFT INTENTIONALLY BLANK 

Memorandum No. D-2010-RAM-016 (Project No. D2009-D000CE-0271.001)                 August 12, 2010

                      Results in Brief: American Recovery and
                      Reinvestment Act Funds Properly Used for
                      Aircraft Parking Apron Repairs at the
                      Minneapolis—St. Paul Air Reserve Station,
                      Minnesota

What We Did                                        Management Comments
Our objective was to determine                     The Air Force Reserve Command had no
whether DOD appropriately planned and              comments on a discussion draft of this report.
implemented American Recovery and
Reinvestment Act (Recovery Act) projects.
Specifically, we reviewed the planning, funding,   Figure 1. Section of Aircraft Parking Apron
execution, and tracking and reporting of           Under Repair at the Minneapolis—St. Paul
Recovery Act Project QJKL 08-0018, to repair       Air Reserve Station, Minnesota
the aircraft parking apron at the Minneapolis—
St. Paul Air Reserve Station, to determine
whether efforts of the Military Services and
Defense agencies complied with Recovery Act
requirements, Office of Management and
Budget guidance, the Federal Acquisition
Regulation, and DOD implementing guidance.

What We Found
The Air Force Reserve Command’s internal
controls over the planning, funding, execution,
and tracking and reporting of Recovery Act
Project QJKL 08-0018, estimated to cost
$1.9 million, at the Minneapolis—St. Paul Air
Reserve Station, were effective as they applied
to the audit objectives. We determined that the
project to repair the Minneapolis—St. Paul Air
Reserve Station aircraft parking apron was
justified and met the Recovery Act goals for
accountability and transparency. Personnel at      Source: U.S. Air Force Reserve Command
the Air Force Reserve Command adequately
planned, funded, executed, and tracked and
reported the project as required by the Recovery
Act, Office of Management and Budget
guidance, the Federal Acquisition Regulation,
and DOD implementing guidance.

What We Recommend
This report contains no recommendations.
THIS PAGE LEFT INTENTIONALLY BLANK 

Table of Contents

Introduction		                                                                 1     


       Objective                                                               1     

       Recovery Act Background                                                 1

       Air Force Reserve Mission and Functions                                 3

       Minneapolis—St. Paul Air Reserve Station Mission and Functions          4


       Review of Minneapolis—St. Paul Air Reserve Station Internal Controls    4


Proper Planning, Funding, Execution, and Tracking and Reporting of 

Recovery Act Repairs to the Aircraft Parking Apron at the 

Minneapolis—St. Paul Air Reserve Station                                       5


Project Planning                                                               5

Project Funding                                                                6

Project Execution                                                              7

Project Tracking and Reporting                                                 8


Appendices

       A. 	Scope and Methodology 	                                             9

              Prior Coverage                                                  10     

       B. Recovery Act Criteria and Guidance 	                                11 

THIS PAGE LEFT INTENTIONALLY BLANK 

Introduction
Objective
The primary objective of the audit was to determine whether DOD and its Components
were planning and implementing the American Recovery and Reinvestment Act of 2009
(Recovery Act) by meeting the requirements in the Recovery Act, Office of Management
and Budget (OMB) Memorandum M-09-10, “Initial Implementing Guidance for the
American Recovery and Reinvestment Act of 2009,” February 18, 2009, and subsequent
related guidance. For this audit, we reviewed the planning, funding, execution, and
tracking and reporting of Recovery Act Project QJKL 08-0018, to repair the aircraft
parking apron at the Minneapolis—St. Paul Air Reserve Station, to determine whether the
efforts of the Military Services and Defense agencies complied with Recovery Act
requirements, OMB guidance, the Federal Acquisition Regulation (FAR), and DOD
implementing guidance. See Appendix A for a discussion of our scope and methodology.

Recovery Act Background
The President signed the Recovery Act into law on February 17, 2009. It is an
unprecedented effort to jump-start the economy and create or save jobs.

       The purposes of this Act include the following:
              (1) To preserve and create jobs and promote economic recovery.
              (2) To assist those most impacted by the recession.
              (3) To provide investments needed to increase economic efficiency by
                  spurring technological advances in science and health.
              (4) To invest		 in transportation, environmental protection, and other
                  infrastructure that will provide long-term economic benefits.
              (5) To stabilize State and local government budgets, in order to minimize
                  and avoid reductions in essential services and counterproductive state
                  and local tax increases
                  .        .         .         .       .        .       .
       . . . the heads of Federal departments and agencies shall manage and expend the
       funds made available in this Act so as to achieve the purposes specified . . .
       including commencing expenditures and activities as quickly as possible
       consistent with prudent management.

Recovery Act Requirements
The Recovery Act and implementing OMB guidance require projects to be monitored and
reviewed. We grouped these requirements into the following four phases: (1) planning,
(2) funding, (3) execution, and (4) tracking and reporting. The Recovery Act requires
that projects be properly planned to ensure the appropriate use of funds. The funding
phase is to ensure the funds were used for authorized purposes and distributed properly to
the projects. The project execution phase is to ensure that contracts awarded with
Recovery Act funds were transparent to the public, competed, and contained specific
FAR clauses for Recovery Act contract actions. The execution phase also ensures that
program goals were achieved, including specific program outcomes and improved results
on broader economic indicators; that projects funded avoided unnecessary delays and


                                                   1


cost overruns; and that contractors or recipients of funds reported results. The tracking
and reporting phase ensures that the recipients’ use of funds was transparent to the public
and that benefits of the funds were clearly, accurately, and timely reported.

Recovery Act Contracting Requirements
The Recovery Act establishes transparency and accountability requirements. Federal
Acquisition Circular 2005-32, March 31, 2009, provides policies and procedures for the
Government-wide implementation of the Recovery Act and guidance on special contract
provisions. Federal Acquisition Circular 2005-32 amended the FAR and provided
interim rules that made FAR solicitation provisions and contract clauses immediately
available for inclusion in contracts for Recovery Act work.

The specific FAR Recovery Act requirements are for:

       buying American construction material,
       protecting contractor whistleblowers,
       publicizing contract actions,
       reporting, and
       giving the Government Accountability Office and agency Inspectors General
        access to contracting records.

Federal Government organizations meet requirements for Recovery Act contract actions
by posting information on the Federal Business Opportunities (FBO) and Federal
Procurement Data System (FPDS) Web sites. FAR Subpart 5.7, “Publicizing
Requirements Under the American Recovery and Reinvestment Act of 2009,” directs
contracting officers to use the Government-wide FBO Web site (http://www.fbo.gov) to:

       identify the action as funded by the Recovery Act,
       post pre-award notices for orders exceeding $25,000,
       describe supplies in a clear narrative to the general public, and
       provide rationale for awarding of any contracting actions that were not both
        fixed-price and competitive.

FBO is the Federal Government’s central source of Federal procurement opportunities.
FBO is a Web-based portal that allows agency officials to post Federal procurement
opportunities and contractors to search and review those opportunities. Agencies also
post contract award notices on FBO. In addition to providing transparency of actions,
FBO has a separate section identifying Recovery Act opportunities and awards.

FPDS is the Federal Government’s central source of procurement information.
Contracting officers enter information, to include the Treasury Account Symbol, in the
FPDS for all Recovery Act contract actions. The Treasury Account Symbol enables
FPDS to provide transparency by generating and posting a report containing all Recovery
Act contract actions.



                                             2

OMB Recovery Act Guidance
Criteria for planning and implementing the Recovery Act continue to change as OMB
issues additional guidance, and DOD and the components issue their implementation
guidance. OMB has issued 10 memoranda and 1 bulletin to address the implementation
of the Recovery Act. See Appendix B for Recovery Act criteria and guidance.

DoD Recovery Act Program Plans
Under the Recovery Act, Congress appropriated approximately $12 billion to DOD for
the following programs: Energy Conservation Investment; Facilities Sustainment,
Restoration, and Modernization (FSRM); Homeowners Assistance; Military
Construction; Near Term Energy-Efficient Technologies; and U.S. Army Corps of
Engineers Civil Works.

The values of the six programs are shown in the following table.
         DOD Agency-Wide and Program-Specific Recovery Act Programs
                             Program                          Amount
                                                            (in millions)
     Energy Conservation Investment                                     $120
     Facilities Sustainment, Restoration, and Modernization            4,260
     Homeowners Assistance                                               555
     Military Construction                                             2,185
     Near Term Energy-Efficient Technologies                             300
     United States Corps of Engineers Civil Works                      4,600
     Total                                                           $12,020

The Recovery Act divides the approximately $12 billion among 32 DOD and USACE
line items of appropriations.

Air Force Reserve Mission and Functions
The mission of the U.S. Air Force Reserve Command (AFRC) is to provide trained
units and qualified people for active duty in the U.S. Air Force in time of war or national
emergency and any other time that national security may require. AFRC consists of 5 Air
Reserve Bases, 4 Air Reserve Stations, and 3 Ranges and has components at 44 Air Force
tenant locations, 1 Navy tenant location, and 1 Army National Guard tenant location.
Headquarters, AFRC is located at Robins Air Force Base in Warner Robins, Georgia.
The Air Force Reserve had a total of eight FSRM Recovery Act projects that were valued
at $13.2 million. The projects were located at three Air Force Reserve Bases and one
Air Force Reserve Station: March Air Reserve Base, Grissom Air Reserve Base,
Westover Air Reserve Base, and Minneapolis—St. Paul Air Reserve Station.




                                            3


Minneapolis—St. Paul Air Reserve Station Mission and
Functions
The 934th Airlift Wing is Minnesota’s only Air Force Reserve unit. It is a combat-ready
AFRC flying unit at the Minneapolis—St. Paul International Airport Air Reserve Station.
The 934th Airlift Wing’s mission is to fly C130H cargo aircraft, air dropping and landing
cargo and people. Another facet of the mission is the aero medical evacuation of patients
within the theatre of operations. The 934th Airlift Wing supports the Air Force mission
on a daily basis, providing airlift both in the United States and around the world.
Members of the 934th Airlift Wing are trained according to Air Force regulations and are
inspected by active duty Air Force members. Upon mobilization orders, the 934th Airlift
Wing deploys to become part of the active duty Air Force’s Air Mobility Command.

The Minneapolis—St. Paul Air Reserve Station had one project, valued at $1.3 million,
to maintain an aircraft parking apron. The scope of the project included removing
damaged airfield concrete and reinforcement, repairing and replacing concrete, making
other miscellaneous repairs, and marking airfield pavement.

Review of Minneapolis—St. Paul Air Reserve Station
Internal Controls
AFRC’s internal controls over the planning, funding, execution, and tracking and
reporting of the aircraft parking apron Recovery Act project at the Minneapolis—St. Paul
Air Reserve Station were effective as they applied to the audit objectives.




                                            4


Proper Planning, Funding, Execution, and
Tracking and Reporting of Recovery Act
Repairs to the Aircraft Parking Apron at the
Minneapolis—St. Paul Air Reserve Station
Air Force Reserve Command (AFRC) personnel properly justified the aircraft parking
apron project at the Minneapolis—St. Paul Air Reserve Station, and the project met the
Recovery Act goals for accountability and transparency. In order to achieve these goals,
AFRC personnel adequately planned, funded, and executed the project. AFRC
personnel also appropriately tracked and reported the project as required by the Recovery
Act.

Project Planning
The Minneapolis—St. Paul Air Reserve Station personnel properly justified and
adequately planned the aircraft parking apron Recovery Act project. Department of
Defense (DD) Form 1391, “Military Construction Project Data,” contained project
justifications. DOD Regulation 7000.14-R, “DOD Financial Management Regulation,”
requires DOD Components to use DD Form 1391 to support the request for authorization
of both new construction and urgent unforeseen projects using emergency or contingency
authorization. Two specific sections of the form (Items 10 and 11) provided details of the
requirement for the proposed project and how the current mission would benefit from the
proposed project. Item 10, Description of Proposed Construction, requires a clear and
concise description of the proposed construction including a complete outline of all
principal features of the work. Item 11, Requirement, includes a detailed, informative
statement of why the project is needed; how and under what conditions the requirement is
presently being met; and the manner and extent to which mission accomplishment would
be affected if the project were not approved.

We reviewed the DD Form 1391 for the aircraft parking apron project and confirmed that
the project justification was supported by the Basis of Design Analysis that was
performed by an architecture and engineering firm on a separate contract. The
architecture and engineering firm assessed the condition of the aircraft parking apron,
identified the sections of concrete that needed to be repaired or replaced, and provided an
estimated cost of the work that needed to be performed. Figure 2 shows what a section of
the aircraft parking apron looked like before repairs.




                                            5


Figure 2. Aircraft Parking Apron Before Repairs




Source: U.S. Air Force Reserve Command

Project Funding
Headquarters AFRC personnel properly distributed the Recovery Act funding for the
Minneapolis—St. Paul Air Reserve Station aircraft parking apron Recovery Act project.
In April 2009, AFRC personnel informed Minneapolis—St. Paul Air Reserve Station
personnel that $1.9 million in Recovery Act funds were in reserve to fund the aircraft
parking apron project and provided authorization to proceed with advanced contracting
actions. In May 2009, AFRC authorized and allocated $1.3 million in Operation and
Maintenance Recovery Act funding to the 934th Airlift Wing of the Minneapolis—St.
Paul Air Reserve Station to fund the aircraft parking apron Recovery Act project contract.

Project Execution
The Minneapolis—St. Paul Air Reserve Station contracting personnel properly solicited
and awarded a contract for the aircraft parking apron project. Specifically, the project
solicitation was transparent and competed; the contract was awarded as a fixed-price
contract and contained the specified Recovery Act Federal Acquisition Regulation (FAR)
clauses.

Transparency and Recovery Act FAR Clauses
To ensure that transactions related to this Recovery Act project were transparent, the
Minneapolis—St. Paul Air Reserve Station contracting personnel posted a pre-solicitation
notice on FBO. The pre-solicitation notice contained the required Recovery Act
language. The synopsis in the pre-solicitation notice clearly explained the nature of the
work and informed the public that only contractors that were awarded the Command-
Wide Operations and Maintenance Project Execution Contract (COMPEC) could submit
a proposal. The COMPEC was an indefinite-delivery, indefinite-quantity (IDIQ) contract

                                            6


awarded by Headquarters AFRC to six businesses primarily for use by the AFRC host
installations and AFRC tenant locations. AFRC contracting personnel awarded the IDIQ
contract for a base period of 1 year and 4 additional 1-year options. The limitations for
placing orders against the contract were a minimum of $100,000 and maximum of $5
million. On April 24, 2009, AFRC contracting personnel issued a modification to the
COMPEC IDIQ contract to incorporate the FAR clauses for the Recovery Act.

Competition and Contract Award
The AFRC contracting personnel competed the project among the incumbent COMPEC
contractors and received four proposals. The contracting office awarded a firm-fixed-
price task order against the COMPEC IDIQ contract on May 6, 2009, to Geo-Marine
Incorporated, in the amount $1,315,808 for the aircraft parking apron Recovery Act
project. Contracting personnel posted the award to FBO and issued a notice to proceed to
the contractor on June 3, 2009. The $1.9 million reserved in Recovery Act funding for
this project was more than the contract award amount, which resulted in a savings of
approximately $584,192. AFRC personnel stated that the savings would be used to fund
projects in states with high unemployment in accordance with January 2010 guidance
from the Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer.

Project Cost and Schedule
Contract progress reports for this project indicated that the project was 98 percent
complete. AFRC personnel stated that the work was completed on July 7, 2010, within
projected cost. Figure 3 shows a section of the aircraft parking apron after repairs.

Figure 3. Aircraft Parking Apron After Repairs




Source: U.S. Air Force Reserve Command




                                            7


Project Tracking and Reporting
AFRC personnel had sufficient resources and procedures in place to track and report the
progress of the project as required by the Recovery Act. A project inspector provided
daily, on-site monitoring to ensure the contractor’s compliance with contract
requirements.

FAR Clause 52.204-11, “American Recovery and Reinvestment Act–Reporting
Requirements,” requires contractors for Recovery Act projects to report project
information at http://www.federalreporting.gov. To help ensure the timely and accurate
submission of project information to the Federal Web site, AFRC personnel stated that
they contacted the contractor 5 days before the reporting deadline to remind them of the
requirement. Geo-Marine Incorporated reported the number of jobs and total dollar value
for the project as required.




                                           8


Appendix A. Scope and Methodology
We conducted this audit from August 2009 to August 2010 in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

Scope
Project QJKL 08-0018, to repair the aircraft parking apron, was the only project
submitted by the Air Force Reserve Command for Recovery Act funding for the 934th
Airlift Wing at the Minneapolis—St. Paul Air Reserve Station. The estimated cost of the
project was $1.9 million. The contract was awarded for $1.3 million.

Methodology
Our overall audit objective was to evaluate DOD’s planning and implementation of the
Recovery Act of 2009. To accomplish our objective, we reviewed the planning, funding,
project execution, and tracking and reporting of Project QJKL 08-0018. We interviewed
key personnel at the Air Force Reserve Command Headquarters and the Minneapolis—
St. Paul Air Reserve Station and conducted a site visit to observe the aircraft parking
apron. We also reviewed documentation including the official contract file, economic
analysis, cost estimate, DD Form 1391, and budget authorization and associated support
to determine whether Air Force Reserve personnel complied with Recovery Act
requirements, OMB guidance, the FAR, and DOD implementing guidance. Specifically,
we determined whether:

      the project was adequately planned to ensure the appropriate use of Recovery Act
       funds (Planning);
      funds were used for authorized purposes and properly distributed to the project
       (Funding);
      the contract was competed and awarded with full transparency and it contained
       the required Recovery Act FAR clauses (Project Execution);
      projects avoided unnecessary delays and cost overruns (Project Execution); and
      recipient’s use of funds was transparent to the public and the benefits of the funds
       were clearly, accurately, and timely reported (Reporting).

Use of Computer-Processed Data
We used computer-processed data from the Federal Procurement Data System, Central
Contractor Registration, Excluded Parties List System, FBO, www.federalreporting.gov,
and other systems to determine whether the project met the Recovery Act requirements
for accountability and transparency. We tested the accuracy of the computer-processed
data by obtaining copies of contracting, funding, and reporting project documentation


                                             9


from AFRC. We also interviewed AFRC personnel responsible for managing the project.
We did not identify any problems related to the integrity of the data.

Use of Technical Assistance
Before selecting DOD Recovery Act projects for audit, the Quantitative Methods and
Analysis Division of the DOD Office of Inspector General analyzed all DOD agency-
funded projects, locations, and contracting oversight organizations to assess the risk of
waste, fraud, and abuse associated with each. We selected most audit projects and
locations using a modified Delphi technique, which allowed us to quantify the risk based
on expert auditor judgment, and other quantitatively developed risk indicators. We used
information collected from all projects to update and improve the risk assessment model.
We selected 83 projects with the highest risk rankings; auditors chose some additional
projects at the selected locations.

We did not use classical statistical sampling techniques that would permit generalizing
results to the total population because there were too many potential variables with
unknown parameters at the beginning of this analysis. The predictive analytic techniques
employed provided a basis for logical coverage not only of Recovery Act dollars being
expended, but also of types of projects and types of locations across the Military
Services, Defense agencies, State National Guard units, and public works projects
managed by the U.S. Army Corps of Engineers.

Prior Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DOD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                           10


Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria documents (notes appear at
the end of the list):

   		 U.S. House of Representatives Conference Committee Report 111-16, “Making
       Supplemental Appropriations for Job Preservation and Creation, Infrastructure
       Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
       State and Local Fiscal Stabilization, for the Fiscal Year Ending September 30,
       2009, and for Other Purposes,” February 12, 2009

   	 Public Law 111-5, “American Recovery and Reinvestment Act of 2009,” 

      February 17, 2009


   	 OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
      Recovery and Reinvestment Act of 2009,” February 18, 2009

   	 OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and
      Reinvestment Act of 2009 Appropriations,” February 25, 2009

   		 White House Memorandum, “Government Contracting,” March 4, 2009

   		 White House Memorandum, “Ensuring Responsible Spending of Recovery Act
       Funds,” March 20, 2009

   	 OMB Memorandum M-09-15, “Updated Implementing Guidance for the 

      American Recovery and Reinvestment Act of 2009,” April 3, 20091


   		 OMB Memorandum M-09-16, “Interim Guidance Regarding Communications
       With Registered Lobbyists About Recovery Act Funds,” April 7, 2009

   		 OMB Memorandum M-09-19, “Guidance on Data Submission under the Federal
       Funding Accountability and Transparency Act (FFATA),” June 1, 2009

   	 OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use
      of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
      June 22, 20092

   	 OMB Memorandum M-09-24, “Updated Guidance Regarding Communications
      with Registered Lobbyists About Recovery Act Funds,” July 24, 2009




                                           11


    		 OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,”
        September 11, 2009
    		 OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing
        Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
        Clause 52.204-11,” September 30, 20092

    		 OMB Memorandum M-10-08, “Updated Guidance on the American Recovery
        and Reinvestment Act – Data Quality, Non-Reporting Recipients, and Reporting
        of Job Estimates,” December 18, 20092

    		 OMB Memorandum M-10-14, “Updated Guidance on the American Recovery
        and Reinvestment Act,” March 22, 20102

    		 White House Memorandum, “Combating Noncompliance With Recovery Act
        Reporting Requirements,” April 6, 20102

    		 OMB Memorandum M-10-17, “Holding Recipients Accountable for Reporting
        Compliance under the American Recovery and Reinvestment Act,” May 4, 20102




Notes
1
  Document provides Government-wide guidance for carrying out programs and activities enacted in the
American Recovery and Reinvestment Act of 2009. The guidance states that the President’s commitment
is to ensure that public funds are expended responsibly and in a transparent manner to further job creation,
economic recovery, and other purposes of the Recovery Act.
2
 Document provides Government-wide guidance for carrying out the reporting requirements included in
section 1512 of the Recovery Act. The reports will be submitted by recipients beginning in October 2009
and will contain detailed information on the projects and activities funded by the Recovery Act.




                                                     12

